                                                U.S. DEPARTMENT OF
                               HOUSING AND URBAN DEVELOPMENT
                                         OFFICE OF INSPECTOR GENERAL


                       
                                              August 16, 2013

                                                                                              MEMORANDUM NO:
                                                                                                   2013-DE-1801

Memorandum
TO:            Carol Galante
               FHA Commissioner-Assistant Secretary, Office of Housing, H

               //signed//
FROM:          Ronald J. Hosking
               Regional Inspector General for Audit, Denver Region, 8AGA

SUBJECT:       Interim Memorandum Report on Wyoming Housing Opportunities Association’s
               Village Creek Townhomes’ 51 FHA Mortgage Defaults


                                           INTRODUCTION

The purpose of this memorandum is to provide time-sensitive information regarding the pending
foreclosures of the 51 Village Creek townhomes previously scheduled for August 5, 2013. On
August 7, 2013 HUD informed us the foreclosure date was delayed another 60 days while HUD
works with the servicing lender to reach a solution which includes offering the units to the
tenants as recommended in recommendation 1A below. We are auditing the Wyoming Housing
Opportunities Association based on information obtained during our audit of the Wyoming
Community Development Authority that 51 Federal Housing Administration (FHA) mortgages
by the same borrower had defaulted.

The audit objective is to determine whether Wyoming Housing developed, originated, and
managed the 51 units of Village Creek in accordance with Federal regulations.

Our preliminary results identified significant conditions that we want to bring to your attention
immediately. We have communicated the interim results to the Director, Office of Single Family
Assets Management, and together determined that a report would be beneficial to address the
foreclosure situation. See the interim recommendations below. Our audit work is ongoing;
specifically, we are reviewing the (1) development of the Village Creek project, (2) legitimacy of
the information in obtaining the FHA mortgages, (3) financial management of the project, and
(4) implementation of the rent-to-own program. HUD chose not to provide written comments to
this report.



                                                Office of Audit Region 8
                                    1670 Broadway, 24th Floor, Denver, CO 80202
                                      Phone (303) 672-5452, Fax (303) 672-5006
                          Visit the Office of Inspector General Web site at www.hudoig.gov.
 
          
                                    

                                             SUMMARY

We found that the Wyoming Housing board of directors voted to default on the Village Creek
mortgages. Further, Wyoming Housing did not implement a binding home ownership agreement
with its tenants and failed to market or attempt to sell the 51 individual Village Creek
townhomes in accordance with the terms of the original agreement documents.

                                       METHODOLOGY AND SCOPE

We reviewed the predevelopment and development documentation for the Village Creek project.
Specifically, we analyzed the financing for the Village Creek project and whether the project
received other Federal funds. We reviewed the origination and servicing of the 51 FHA
mortgages. Lastly, we looked at how Wyoming Housing managed and operated its home
ownership conversion program, with the ultimate goal of home ownership for the Village Creek
tenants. Specifically, we analyzed the current tenant files; reviewed the home ownership
agreement; interviewed tenants; and interviewed Cheyenne Housing Authority, Wyoming
Housing, and Development Authority personnel familiar with the Village Creek development.

                                            BACKGROUND

The key parties involved with the Village Creek development are as follows:

Wyoming Housing Opportunities Association, Inc., Cheyenne, WY

Wyoming Housing is the general partner of Village Creek Limited Partnership, which has owned
Village Creek townhomes from its start in 1995 to the present. Wyoming Housing took over as
manager of Village Creek from 2003 to 2012. It is a nonprofit corporation formed to develop
and manage affordable housing within the State of Wyoming. In 1993, the Cheyenne Housing
Authority created Wyoming Housing. Volunteers direct the board.  Wyoming Housing seeks a
variety of creative financing packages and partnerships to create affordable housing. 

Cheyenne Housing Authority, Cheyenne, WY

Cheyenne Housing developed Village Creek, managed Village Creek from 1994 to 2003, has
Section 8 voucher tenants living at Village Creek, and pursued a purchase of Village Creek after
Wyoming Housing defaulted on the mortgages. Additionally, it created Wyoming Housing as a
nonprofit for the main purpose of obtaining tax credits in the development of Village Creek. The
State of Wyoming created Cheyenne Housing in 1971 to address the low-income housing needs
of the community. A five-member board of commissioners appointed by the mayor and city
council governs its activities. Cheyenne Housing contracts with HOM, Inc., to provide all of its
management. The president of HOM, Inc., is also the executive director of Cheyenne Housing
and the driving force in developing Village Creek, using a mix of tax credits, loans, and FHA
mortgages.




                                                 2
          
                                    



Wyoming Community Development Authority, Casper, WY

The Development Authority is the servicer of the 51 FHA loans, provided development loans for
Village Creek, and manages Village Creek. It raises capital by selling tax-exempt mortgage
revenue bonds to investors and receives no State funding. A State statute created the
Development Authority in 1975 as an instrumentality of the State for the purpose of raising
capital to finance affordable housing.

Village Creek

In 1993, Cheyenne Housing created Wyoming Housing for the purpose of developing a 51-unit
affordable housing project called Village Creek (see attachment A for current photos). The
concept for the project was to provide low- to moderate-income home buyers the opportunity to
rent the units for 15 years and then offer them the opportunity to purchase the units at an
affordable price. To comply with the nonprofit regulations that allowed Wyoming Housing to
receive tax credits, Cheyenne Housing could not have a controlling interest in Wyoming
Housing. Originally, two of the five board members of Wyoming Housing were also board
members of Cheyenne Housing. Currently one of the five board members serves both entities.

Wyoming Housing built and financed Village Creek in 1995 with low-income housing tax
credits; loans from the Development Authority, Mercy Housing, and Cheyenne Housing; and 51
single-family FHA-insured loans from the Development Authority (see chart below). The legal
owner of Village Creek is Village Creek Limited Partnership, with Wyoming Housing as the
general partner and the Federal National Mortgage Association (Fannie Mae) as the investor-
limited partner (Fannie Mae purchased the tax credits).
 
                                                          Outstanding balance 
                                                           (as of December 
       Source of funding               Dollar amount             2012)           Maturity date 

    Development Authority                                                      18 months from 
    construction loan                       $4,000,000                     $0  closing 

    Mercy Housing bridge 
    loan                                    $2,155,000                     $0  October 1, 2000 

    Cheyenne Housing 
    development fee                         $1,000,000               $300,000  Deferred 

    Cheyenne Housing                                                           17 years from 
    second mortgage                         $1,419,000               $843,950  closing 




                                                           3
          
                                    

  Development Authority 
  permanent loan (FHA                                                25 years from 
  mortgages)                           $2,050,000        $1,439,792  closing 

  Internal Revenue                                                   15 years from 
  Service tax credits                  $3,670,000                $0  closing 


FHA shows the lender as American National Bank of Cheyenne (no longer in business) for the
51 FHA loans; however, after closing, the loans transferred immediately to the Development
Authority for servicing. Documentation we reviewed showed that the Development Authority
provided direction and guidance to American National Bank loan officers during the origination
of the loans. The former HUD Wyoming field director, improperly underwrote all 51 loans and
gave final FHA approval.

Village Creek was developed and marketed as a home ownership conversion project. The intent
was to sell the 51 units to the tenants at the end of the 15-year tax-credit compliance period.
Wyoming Housing must rent or sell the 51 units to individuals at or below 60 percent of the area
median income according to the tax-credit land use restriction agreement. The 15-year tax-credit
compliance period ended in 2010. As of June 2013, there were 46 occupied units, 1 caretaker
unit, and 4 vacant units, with 27 units having tenant-based Section 8 voucher recipients
administered by Cheyenne Housing.
Wyoming Housing contracted with Cheyenne Housing to manage Village Creek from 1995 to
2003. In 2003, Wyoming Housing terminated its contract with Cheyenne Housing and assumed
full management responsibilities for the project. In 2012, the Wyoming Housing board decided
it did not have sufficient cash flow to keep the project viable, so the board voted to stop making
its mortgage payments and let all 51 FHA mortgages go into default. On November 27, 2012,
the Development Authority received a letter informing it of the board’s decision.

The unpaid principal balance on the loans is more than $1.4 million. After the loans defaulted,
the Development Authority exercised its right to the assignment of rents on the townhomes.
Also, it received from HUD an extension of 3 additional months to commence the foreclosure
process (through June 2013). It is working with Wyoming Housing to turn over all the Village
Creek funds. The townhomes have deferred maintenance and need repairs due to hail damage.

                                         RESULTS OF REVIEW

The audit is ongoing; therefore, we have not analyzed all the financial documentation to
determine the condition and capacity of Wyoming Housing regarding its Village Creek
development. We will provide an audit report addressing the finances and any other information
discovered throughout the audit.

In November 2012, the board of directors for Wyoming Housing voted to default on the Village
Creek mortgages. We interviewed the board president, board secretary, and business manager
and confirmed that the board voted to default on the mortgages because it was no longer in a
positive cash-flow situation and could not afford to maintain the property. However, the Village


                                                     4
          
                                    

Creek bank accounts had and currently have a balance of more than $100,000. Further, when we
interviewed the former executive director of Wyoming Housing, his assessment indicated that
there was adequate cash flow to continue paying the mortgage and there were ways to make the
Village Creek project work. He asserted that the board needed to reassess its charging of
management fees.

Wyoming Housing did not establish a home ownership conversion program as outlined in its
original concept. No contracts were set up with the tenants. Below are excerpts from its various
documents:

             The ownership agreement states: “The purchase price per unit under such purchase
              agreement shall not exceed the then remaining balance of the first mortgage for the unit
              plus a proportionate part of the balance of any second mortgage loan held by CHA
              [Cheyenne Housing] or its successor, provided that only such portion of the second
              mortgage may be included as will not make a unit unaffordable by a person or persons
              with the same income as a qualified low income tenant under the LIHTC [low-income
              housing tax credit] program.” The Development Authority and Cheyenne Housing
              signed the agreement.
             The John J. Gunther Blue Ribbon Practices in Community Development package
              submitted to HUD states: “At the end of 15 years, the tenants will be able to purchase the
              units, with new 30 year mortgages for the remaining principal balance. The lower
              mortgage amount will keep the homes affordable.” Additionally, in the same award
              package it states: “The project is up and running with 51 townhouse units of affordable
              rental housing. At the end of 15 years, the units will be sold as affordable homes, with
              the first right to purchase afforded to the current tenants.” Later, Wyoming Housing won
              the award based on the package write-up.
             The fact sheet provided to all financing participants included the following: “The units
              will be leased to the families for fifteen years, after which they will be sold to the families
              for approximately $ 35,000 per unit. The Development Authority has arranged financing
              for the families at 6.5% interest, which equates to a family housing payment of
              approximately $250 per month when the units are sold to the families.”
             The Village Creek home ownership agreement states: “CHA [Cheyenne Housing] has
              been granted a Right of First Refusal to Purchase the Townhouses (and options to
              purchase the partnership interests of the Partners in the Village Creek Limited
              Partnership) at the end of the compliance period and CHA will exercise its right to
              purchase the Townhouses (or partnership interests) at the first available opportunity after
              the compliance period.”

Before Wyoming Housing defaulted on the mortgages, it failed to market or attempt to sell the
51 individual Village Creek townhomes to current tenants or other individuals who meet the 60
percent area median income requirement. It did not give the current tenants an opportunity to
purchase the townhomes as outlined in its initial rent-to-own concept because it emphasized that
it was “too expensive.” The projected sales price on the townhomes was close to $100,000
according to the analysis it presented to Cheyenne Housing, not the remaining principal balance
on the loans as agreed to, approximately $30,000 at the time of default.




                                                        5
          
                                    

We interviewed four long-term tenants who had lived in Village Creek between 15 and 18 years.
All of the tenants said they would purchase their townhomes for the remaining balance on the
FHA loans if given the opportunity. The tenants stressed that they were not given the
opportunity to purchase the units. However, each said Wyoming Housing marketed the units as
a rent-to-own home ownership opportunity when they moved in. The current tenants could face
forced eviction within 3 years if the scheduled foreclosure sale takes place.

                                       INTERIM REPORT RECOMMENDATIONS
We recommend that the FHA Commissioner-Assistant Secretary, Office of Housing:

1A.           Develop and implement a plan to resolve the current situation with the least amount of
              negative impact on the insurance fund. The plan should include any possible options to
              offer the current tenants the option to purchase their townhome at the remaining principal
              balance in accordance with the Village Creek home ownership agreement and the original
              documents presented to HUD during underwriting.

1B.           Assess administrative sanctions against Wyoming Housing Opportunities Association for
              failing to establish the home ownership conversion plan and subsequent default of
              Village Creek Townhomes.




                                                      6
          
                                    

                                                 ATTACHMENT A




                            Front view of townhome          Basketball courts in townhomes




                            Local park near townhomes       Sound wall in back of townhomes




                                                        7
